Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel No.: (212) 619-4949• Fax No. (212) 608-3141

79569
STATE OF NEW YORK,

AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action, and is
over 1 8 yea rs of age.
That on the 29th day of July 2019 deponent served 3 copies of the within

PETITION FOR WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Geoffrey M. Long
Counsel of Record
Department of Justice
Commercial Litigation Branch, Civil Division
Ben Franklin Station
Washington, DC 20044
[202) 307-0159
geoffrey.m.long@usdoj.gov
Counsel for Respondent

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on July 29, 2019, pursuant to Supreme Court
Rule 29.5(c). All parties required to be served, have been serv~

~

.

Edward Gutowski

Sworn to me this
July 29, 2019
RAMIRO A. HONEYWELL
Notary Publ' , tate of New York
No. 1 06118731

Case Name: Zafer v. US Army
Docket/ Case No.

